PROOF OF SERVICE.
At the time of the service, I am over 18 yo and not a Party in this action.
My address is:
225 Hyde St., Apt. 603, San Francisco, CA, 94102

On October 24, 2020,1 mailed the following documents:
1) Petition for Rehearing No. 20-5581 with Appendices A, B, C, D, E, F, G, H
2) Certificate of Tatyana Drevaleva
3) Exerpts of the Record, Volumes 1 and 2
to the Solicitor General of the United States to the following address:
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001

I declare under the penalty of perjury and under the Federal laws that all
foregoing is true and correct. Executed at San Francisco, CA on October 24, 2020.

Mr. Mark Sklar

Name

Signature

Date: October 24, 2020.

RECEIVED
QCT 1 8 2020

PROOF OF ELECTRONIC SERVICE.
I, Plaintiff Tatyana Drevaleva, am over 18 yo, and I am a Party to the action.
On October 24, 2020,1 served Trial Attorney, Commercial Litigation Branch, Civil
Division Ms. Antonia Soares with the following documents:
1) Petition for Rehearing No. 20-5581 with Appendices A, B, C, D, E, F, G, & H
2) Certificate of Tatyana Drevaleva
3) Exerpts of the Record, Volumes 1 and 2
from

my

email

address

tdrevaleva@gmail.com

to

Ms.

Soares’s

address

Antonia.Soares@,usdoi .gov after obtaining Mr. Soares’s consent for electronic service. I
previously requested Ms. Soares’s permission to serve electronically, and she answered
affirmatively.

I declare under the penalty of perjury and under the Federal laws that all foregoing is true
and correct. Executed at San Francisco, CA on October 24, 2020.

s/Tatyana Drevaleva
Petitioner Pro Se
3015 Clement St., Apt. 204, San Francisco, CA, 94121
415-806-9864; tdrevaleva@gmail.com
Date: October 24, 2020.

